OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
TELECOMMUNICATIONS
ACTIVITIES
AUDIT REPORT NO. E-267-07-004-P
May 3, 2007




BAGHDAD, IRAQ
Office of Inspector General


May 3, 2007

MEMORANDUM

TO:                  USAID/Iraq Mission Director, Hilda Arellano

FROM:                RIG/Baghdad, Nancy J. Lawton /s/

SUBJECT:             Audit of USAID/Iraq’s Telecommunications Activities
                     (Report No. E-267-07-004-P)

This memorandum transmits our final report on the subject audit. The report contains two
recommendations for your action with which the Mission disagreed in its response to the draft
report.

Management decisions for the recommendations will be considered to be made when USAID/Iraq
has developed firm plans of action for implementing the recommendations. In this regard, please
advise us in writing within 30 days of the actions planned to implement the recommendations.
Final action will be coordinated with USAID’s Audit, Performance and Compliance Division after
management decisions have been reached.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during this audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

     Intended Results Not Fully Achieved .......................................................................... 5

     Results Should Have Sufficient
     Supporting Documentation.......................................................................................... 7

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 12

Appendix III –Intended Outputs Summary.................................................................. 17
SUMMARY OF RESULTS
USAID/Iraq was tasked by the Iraq Reconstruction Management Office (IRMO) to
participate in the project to construct and turn over to the Government of Iraq a
functioning Consolidated Fiber Network (CFN). The IRMO-led project involved multiple
partners. USAID/Iraq and its contractor, Bechtel National Inc. (Bechtel), were to achieve
the following:

   •   Provide fiber optic material and construction equipment,
   •   Employ 1,000 Iraqis, and
   •   Improve the data and voice transmission network to provide future benefits to an
       estimated 10 million Iraqis.

The audit found that even though USAID provided equipment, employed some Iraqis,
and expanded some of Iraq’s telecommunications facilities, the $46.1 million project has
yet to benefit the millions of Iraqis as intended. We recognize that future benefits to
Iraqis can only be achieved after all partners have completed their efforts under the CFN
project. Although Bechtel completed its work on June 30, 2006, the project had yet to
achieve all intended results because the United Nations Development Program and the
Ministry of Electricity had not completed their portions. (See pages 2 and 5.)

We believe that Iraqis may not receive the full benefit of a consolidated fiber network
because the effort lacked someone to oversee and coordinate the project. Also, the Iraq
Ministry of Electricity, one of the participants and a beneficiary of the project, disagreed
with it from the outset. Consequently, we recommend that USAID/Iraq:

   •   Work with IRMO and the Ministry of Electricity to develop a plan to allow the full
       impact of the project to be realized by installing necessary equipment and
       making it operational.

   •   Develop a system to ensure that preliminary planning for future construction or
       rehabilitation projects includes obtaining written agreement from key partners
       regarding responsibilities that are essential to the achievement of the project.
       (See pages 5 and 6.)

Additionally, the total number of Iraqis employed could not be determined because of a
lack of supporting documentation. The Mission has taken corrective action to preclude
this from happening in future projects. (See page 7.)

Management comments are included in their entirety in Appendix II. (See page 12.)




                                                                                          1
BACKGROUND
In support of the Iraq Infrastructure Reconstruction Program, on January 5, 2004, USAID
awarded Bechtel National, Inc. (Bechtel) a $1.8 billion contract for the repair,
rehabilitation or reconstruction of vital elements of Iraq's infrastructure. On January 15,
2005, USAID issued a job order 1 under this contract to implement a project for the
design, installation, and testing of a nationwide fiber telecommunications network to
connect power and telecommunications facilities across Iraq. The job order had a total
direct-cost budget of $47 million during audit fieldwork and an estimated completion date
of June 30, 2006; in December 2006, the job order was amended to reflect direct costs
of the job order of $31.1 million. As of September 30, 2006, disbursements under the
project totaled $46.1 million; the total disbursements of the job order as reported by
Bechtel and USAID/Iraq include both direct ($31.1 million) and distributable costs 2 ($15
million). Bechtel completed the work on June 30, 2006.

The overall objective of the project was to construct and turn over to the Iraqi
government a functioning consolidated fiber network that would provide control
capabilities and communication for the state-owned electricity grid and expand the
available voice and data capacity of the national telecommunications network. The
telecommunications project was part of a broader effort to repair and upgrade Iraq’s
telecommunications fiber optic backbone, 3 and USAID/Iraq was only responsible for
completing its part of the project. Other parties participating in the overall plan included
the following:

    •   Iraq Reconstruction Management Office (IRMO) 4
    •   United Nations Development Program
    •   Project and Contracting Office 5
    •   Ministry of Electricity
    •   Iraq Telecommunications and Post Company (ITPC).

The IRMO Office of Communications was to act as an integrator and oversee the entire
consolidated fiber network project. The United Nations Development Program and the
Project and Contracting Office were involved in the remote terminal units Supervisory



1
  A job order is not an obligating document and therefore does not add funding to the contract; it
  merely allocates funding for a particular infrastructure project.
2
  Distributable costs are defined as job order and contract direct costs not identifiable to one job
  order. For example, costs at the job order level consist of items such as the salary of the
  acquisition team and subcontract management, camps, security, and office equipment. Costs at
  the contract level consist of such items such as the prime contractor’s mobilization expenses,
  salary of the chief of party, and the contractor’s fixed fee for mobilization.
3
   The backbone is a larger transmission line that carries data gathered from smaller lines that
  interconnect with it.
4
  IRMO was established by a Presidential Directive to coordinate the U.S. reconstruction program
  in Iraq in cooperation with the U.S. government agencies and the Iraqi government.
5
  The Project and Contracting Office was established in June 2004, within the Department of the
  Army, to provide support for all activities associated with financial, program, and project
  management for Iraq reconstruction activities.


                                                                                                  2
Control and Data Acquisition (SCADA) 6 parts of the project, and the Ministry of
Electricity provided system operations and communications engineering groups. The
ITPC provided engineering and operating groups. In addition, the U.S. Army Corps of
Engineers provided technical assistance, quality control and assurance monitoring,
information management, and reporting on Bechtel activities under a Participating
Agency Service Agreement with USAID/Iraq.



AUDIT OBJECTIVE
As part of its fiscal year 2006 annual audit plan, the Regional Inspector General in
Baghdad conducted this audit to answer the following question:

      •   Did USAID/Iraq’s activities to construct a consolidated fiber network in Iraq
          achieve their intended results?

Appendix I contains a discussion of the audit’s scope and methodology.




    Photo of consolidated fiber network equipment at a      Photo of a signal rack at a
    power plant. The tower on the left is the operator.     power plant. (Central Iraq -
    The tower on the right is the data receiver. (Central   September 2006)
    Iraq - September 2006)




6
The term SCADA refers to a central system that monitors and controls electric power distribution
and generation. A remote terminal units package data, send it to the master computers, and
implement centrally-determined commands. The master computer analyzes the data and
initiates control commands for the equipment settings. The commands are then electronically
sent back to the remote terminal units at the various sites, where the remote terminal units
implement the centrally-determined commands.


                                                                                              3
AUDIT FINDINGS
Of the three intended results identified below, USAID/Iraq achieved its intended result 7
of providing equipment, but did not have sufficient documentation to support
achievement of employing 1,000 Iraqis, and only partially achieved the third intended
result of expanding the Iraq Telecommunications and Post Company’s (ITPC) facilities. 8
However, even with the partial achievement, millions of Iraqi people were not benefiting
as intended from the consolidated fiber network.

The table below and ensuing discussion provide a description of the intended results as
stated in the job order and the accomplishments of the Mission.

                              Table of Intended Result Status

                                Intended Result                                 Result Status

        Provide fiber optic equipment and construction equipment to the
        Iraq Telecommunications and Post Company (ITPC). This
    1                                                                              Achieved
        equipment will give the ITPC the ability to expand and maintain
        their future network.

                                                                                   Could not
        Employ an estimated 1,000 Iraqis through use of local                   determine due
    2
        subcontractors and involvement of contractor's Iraqi staff. 9            to insufficient
                                                                                documentation

        Expand the existing ITPC facilities; in addition this project will
        provide future benefits to an estimated 10 million people                  Partially
    3
        throughout Iraq by improving a modern, high-speed data and                 achieved
        voice transmission network.


For the first intended result, USAID/Iraq through its contractor, Bechtel National, Inc.
(Bechtel), provided fiber optic equipment and construction equipment to the ITPC as
planned. Therefore, the first intended result was achieved.

7
   A result is defined as a significant, intended, and measurable change in the condition of a
  customer, or a change in the host country, institutions, or other entities that will affect the
  customer directly or indirectly. Results are typically broader than USAID-funded outputs and
  require support from other donors and partners not within USAID’s control. In answering the
  audit objective, the audit also reviewed intended outputs (a tangible, immediate, and intended
  product or consequence of an activity within USAID’s control) and determined that the outputs
  were achieved. See Appendix III for a description and complete list of the intended outputs.
8
   As of February 27, 2007, the fiber backbone was providing communications between the
  Basrah area and the Baghdad area for telephone subscribers. In addition, 6 of the 40 Ministry
  of Electricity sites with installed equipment were operational due to the interventions of
  USAID/Iraq and partners.
9
  On December 19, 2006, after the end of fieldwork and after the discussion of the audit results
  with the Mission, the job order was amended to reduce the intended result to 300 Iraqis
  employed. For purposes of the audit, we will use the initial intended result of employing 1,000
  Iraqis.


                                                                                               4
Bechtel reported weekly on the second intended result, but it could not provide sufficient
documentation to determine if it employed 1,000 Iraqis. This issue is discussed in
greater detail in the “Results Should Have Sufficient Supporting Documentation” section.

The third intended result was partially achieved as the existing ITPC facilities were
expanded through the fiber optic equipment installed and provided to the ITPC.
However, at the time of audit fieldwork, 10 million people had yet to benefit from the
consolidated fiber network because the network was not being utilized as intended. 10
This intended result was, however, beyond the control of USAID/Iraq. As stated below,
even though USAID/Iraq through Bechtel met all of its intended outputs, the intended
result was not fully achieved due to circumstances beyond the control of the Mission.



Intended Results Not Fully
Achieved

     Summary: Millions of Iraqi people have not benefited from the project as intended
     due to the Ministry of Electricity not fully utilizing the consolidated fiber network and
     the equipment installed by USAID/Iraq. In addition, the Ministry of Electricity had
     not completed part of the project. This occurred because of the lack of a project
     integrator and the lack of agreement from the Ministry of Electricity at the beginning
     of the project. As a result, U.S. Government funds of $46.1 million were spent on a
     project that may only be partially utilized.

Millions of Iraqi people were not yet benefiting from the consolidated fiber network,
contrary to the project’s intended result. Achieving the intended result depended on the
designation of an integrator to monitor and ensure effective coordination and
implementation of USAID/Iraq’s part of the project with the other parts of the project. It
was also dependant upon agreement from all parties involved, including the Ministry of
Electricity. However, there was not a functioning integrator, and the Ministry of
Electricity did not agree to the project. The UNDP and the Ministry of Electricity had not
completed their parts of the project. Therefore, even though USAID/Iraq through Bechtel
achieved its intended outputs, USAID/Iraq did not fully achieve its intended results.

A November 2004 memorandum to the U.S. Ambassador to Iraq from the Iraq
Reconstruction Management Office (IRMO) stated that upon inception of the project, the
IRMO Office of Communications was to chair ongoing meetings to monitor and ensure
effective coordination and implementation of the consolidated fiber network and its
connectivity to the SCADA and other systems. In other words, the IRMO Office of
Communications was to act as the integrator. However, during interviews with the IRMO
Office of Communications, current management officials stated that they were not the
project integrators. They stated that they have not monitored the status of the project as
a whole. In fact, no organization acted as an integrator.


10
     The Ministry of Electricity and the ITPC had yet to activate and utilize the parts of the
     consolidated fiber network installed by Bechtel, and the United Nations Development Program
     (UNDP) and the Ministry of Electricity had yet to install equipment at 20 sites.


                                                                                                 5
In addition, the project did not have agreement from one of the intended beneficiaries.
The telecommunications project was part of a broader effort to repair and upgrade Iraq’s
telecommunications fiber optic backbone. Other parties in the overall plan included the
UNDP, ITPC, the Ministry of Electricity, the Project and Contracting Office, and IRMO.
The project was proposed by IRMO and a portion assigned to USAID/Iraq, but the
Ministry of Electricity disagreed with the project and never signed an agreement to
perform specific activities such as installing equipment at 20 sites. 11 The Ministry of
Electricity wanted a dedicated–not shared–fiber network. Last, the network configuration
would require that the Ministry of Electricity pay ITPC for bandwidth. According to
officials at USAID/Iraq, Bechtel, the IRMO Office of Communications, and the IRMO
Office of Electricity, the Ministry of Electricity did not support the project from the outset,
but the U.S. Government, including USAID/Iraq, proceeded with the project anyway.

Although the Ministry of Electricity, a major participant and end user, did not concur with
the project because it wanted a stand-alone network, USAID/Iraq was directed by IRMO
to proceed with the project for two reasons. First, a decision had been made by the U.S.
Government not to provide a stand-alone fiber optic network to the Ministry of Electricity.
Second, there were to be multiple users of the network, not just the Ministry of
Electricity. The network was also intended to improve the operational effectiveness of
the communications sector and was a condition precedent to enable the development of
an electronic funds transfer system for the banking sector.

At the time of audit fieldwork, USAID/Iraq was working with the ITPC and the Ministry of
Electricity to resolve outstanding issues between the ITPC and the ministry so that the
installed parts of the fiber network would be activated and used and so that the ministry
would install the equipment USAID/Iraq provided valued at $4.3 million. IRMO staff also
was working to ensure that the project was completed, and the IRMO Office of Electricity
stated that the SCADA system would be installed by the summer of 2007.

Nonetheless, at this time, the project is not meeting its full potential, and U.S.
Government investment of $46.1 million spent as of September 2006 could potentially
be wasted. U.S. Government funds have been spent on equipment that may never be
utilized. As of November 2006, the Ministry of Electricity had not included funding in its
2007 budget to install the equipment provided by USAID/Iraq in 20 sites. As a result, this
equipment may not be installed for at least a year. To address this issue, we are making
the following recommendations:

      Recommendation No. 1: We recommend that USAID/Iraq work with the Iraq
      Reconstruction Management Office and the Ministry of Electricity to develop a
      plan to allow the full impact of the project to be realized by installing necessary
      equipment and making it operational.

      Recommendation No. 2: We recommend that USAID/Iraq develop a system to
      ensure that preliminary planning for future construction or rehabilitation projects
      includes obtaining written agreement from key partners regarding responsibilities
      that are essential to the achievement of the project.


11
     In November 2004, an IRMO Office of Electricity senior advisor to the Ministry of Electricity
     signed a statement of objectives for the CFN project, but no one from the Ministry signed the
     statement.


                                                                                                6
Results Should Have Sufficient
Supporting Documentation
USAID/Iraq and Bechtel could not provide sufficient documentation to determine the total
number of Iraqis employed. Bechtel tracked weekly the number of people employed
through its subcontractors, but it did not track by name, the specific individuals
employed. For example, during the week of October 14, 2005, Bechtel reported that 414
people were employed. Although it is possible that during the life of the project the
intended result of 1,000 Iraqis employed was achieved, the total number of people
employed could not be determined because individual names were not tracked, and an
individual could have been employed over a period of several weeks and counted
multiple times.

USAID’s Automated Directives System 578.3.1 requires originating offices to review
information products for compliance with information-quality guidelines, which stress the
importance of high-quality and accurate results in reporting information. In addition, the
Government Accountability Office’s Standard for Internal Controls in the Federal
Government states that all documentation should be readily available for examination.

The lack of sufficient documentation was due to USAID/Iraq’s and Bechtel’s
management oversight. As a result, the Mission could have misreported the number of
employed Iraqis. On November 13, 2006, the USAID/Iraq program office issued
instructions to strategic objective offices and cognizant technical officers (CTOs)
requiring that data used in USAID reports include source documents for reported results.
In addition, USAID/Iraq hired a firm in May 2005 to provide monitoring services to
USAID/Iraq, including long- and short-term technical and advisory services, data
analysis, and reports for monitoring and evaluating USAID/Iraq’s program. The
contractor was to provide monitoring services to ensure that activity information reported
is valid and was to conduct a data quality assessment of all data reported to
USAID/Washington. However, at the time of audit fieldwork, the contractor had not
reviewed Bechtel files. Because the Mission had taken corrective action, we are not
making a recommendation.




                                                                                        7
EVALUATION OF
MANAGEMENT COMMENTS
In commenting on our draft audit report, USAID/Iraq generally disagreed with the
findings and recommendations. For example, USAID/Iraq indicated that the draft report
reflected a general misunderstanding of USAID/Iraq’s role with regard to the
Consolidated Fiber Network (CFN) project. In its comments, USAID/Iraq indicated that
the report should more clearly state that USAID was just one of several partners
contributing to this IRMO-led project, and that the achievement of intended results
(specifically Intended Result No. 3) was “beyond its authorized contribution.” More
specifically, USAID/Iraq stated that, contrary to the findings in the draft report, it believed
that it had fully achieved its contribution to the project and should not be held
responsible for the overall results of it. Consequently, USAID/Iraq requested that we
delete Intended Result 3 or revise it to reflect that the achievement of this result was “not
squarely within USAID’s manageable interest.”

OIG Response: We have modified the final report to more clearly recognize that
USAID’s telecommunication activities were part of a larger effort and that USAID/Iraq
was responsible for only certain aspects. Further, we changed the report to clarify that a
portion of Intended Result No. 3 was beyond the direct control of USAID/Iraq.

With regard to Intended Result No. 2, USAID/Iraq stated that a December 2006
amendment to the Bechtel job order reduced the intended result of employing Iraqis to
300. Consequently, USAID/Iraq requested that we modify the draft report to reflect the
lower target and make a new determination as to whether there was sufficient
documentation to support the achievement of that target.

OIG Response: As Bechtel had completed its work under the job order by June 2006,
we see no utility in changing this result target six months afterwards.

USAID/Iraq disagreed with Recommendation No. 1 in the draft report because Mission
officials did not believe that USAID/Iraq was authorized to serve as the US government
lead for the CFN project. Further, USAID/Iraq indicated that it did not have the funds or
current capacity to oversee the completion of the Project, and that the responsibility
remains with IRMO.

OIG Response: We understand that IRMO has the lead on this project. However, we
believe that USAID/Iraq, as a major contributor, has a continuing responsibility to help
ensure that the tens of millions of dollars in US government resources are used to the
maximum effect. Our recommendation is not for USAID/Iraq to assume leadership of
this CFN project. Rather, we are recommending that USAID/Iraq work with IRMO and
the other key CFN participants to formally and collectively identify implementation
constraints and develop a plan to mitigate those constraints so that the full impact may
be achieved. We have modified Recommendation No. 1 to limit USAID/Iraq’s
participation to helping develop a plan and not necessarily the implementation of it,
which we recognize rests with IRMO to decide.




                                                                                             8
USAID/Iraq disagreed with Recommendation No. 2 by stating that USAID already has
policies and procedures that address due diligence issues and that there is no need to
invent a new system. Further, USAID/Iraq indicated that the CFN project was started
during a transitional phase in the Iraqi Government when US assistance was usually
delivered outside of government-to-government agreements.

OIG Response: Our recommendation is not that USAID/Iraq develop new policies and
procedures, but that it develop a system to better ensure that those existing policies and
procedures are followed. This is particularly important given the frequent turnover of
Mission employees who normally fill one-year assignments in Iraq. While we understand
that many assistance projects began during periods in which the Iraqi Government was
undergoing transition, USAID/Iraq officials, IRMO officials, and Bechtel employees all
stated that the Ministry of Electricity-a key participant and beneficiary of the CFN project-
disagreed with it.

USAID/Iraq comments included additional suggestions and requests regarding some of
the facts and wording in the draft report. Based on those comments, we made
modifications which we considered to be appropriate in finalizing this report.

Management comments are included in their entirety in Appendix II.




                                                                                           9
                                                                             APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad audited USAID/Iraq’s telecommunications
activities in accordance with generally accepted government auditing standards. The
purpose of the audit was to determine whether USAID/Iraq’s activities to construct a
consolidated fiber network in Iraq achieved their intended results.

The Consolidated Fiber Network (CFN) project was implemented through Bechtel
National, Inc. (Bechtel) under one job order. The job order was issued on January 15,
2005 under contract number SPU-C-00-04-00001-00 and was effective through June 30,
2006. As of September 30, 2006 disbursements totaled approximately $46.1 million; this
number includes both direct and distributable costs. The audit covered $39.2 million in
testing through review of documents.

The audit focused on determining if USAID/Iraq’s telecommunications activities
implemented by Bechtel achieved their intended results as of September 30, 2006. The
audit also included an examination of management controls relating to the monitoring of
activities performed under the job order. Specifically the controls included the following:

   •   Performance of field visits by USAID/Iraq to the project sites to observe work
       achieved.
   •   Review and approval of Bechtel’s financial vouchers.
   •   Review and approval of Bechtel’s periodic performance reports.
   •   Completion of the Mission’s Federal Managers’ Financial Integrity Act reports.

Monitoring activities also were performed by the United States Army Corp of Engineers
(USACE) under a Participating Agency Service Agreement between USACE and
USAID/Iraq. The purpose of the agreement was to obtain construction oversight of the
reconstruction contractor (Bechtel under the contract mentioned above) including
technical assistance, quality control and assurance monitoring, information
management, and reporting.

The audit fieldwork was performed from August 22 to December 7, 2006 and consisted
of interviews with key technical staff from the Mission, Iraq Reconstruction Management
Office personnel, USACE personnel, and Bechtel employees; review of relevant
performance and financial documents; and site visits to selected Ministry of Electricity
sites where project equipment was installed.

As part of our initial work, we examined related audits performed by other U.S.
Government agencies, including the Defense Contract Audit Agency.




                                                                                        10
Methodology
To determine if USAID/Iraq met the intended results as well as the intended outputs, we
reviewed available project documents furnished by the Mission, Bechtel, and USACE’s
Iraq Reconstruction Tracking System Database. The documentation included copies of
job orders and amendments, photographs, final inspection records, correspondence,
Bechtel weekly and monthly performance reports, and USACE site visit and quality
assurance reports. In addition, a limited financial review of the project was performed,
including the contractor’s financial report and a pipeline analysis.

In conducting our fieldwork, we interviewed technical staff from the USAID/Iraq Mission,
its contractor (Bechtel), and USACE. The interviews were conducted either in person,
via telephone conferences, or via e-mail correspondence. We also attended one of the
CFN coordination meetings held between the Ministry of Electricity and the Iraq
Telecommunications and Post Company in order to assess the status of the CFN
integration process.

Because the security situation precluded visits to many areas, site visits were made to
only 3 of the 40 Ministry of Electricity sites where CFN equipment was installed.
However, we relied on independent verification done by USACE to answer the audit
objective.

To determine if Bechtel had met its intended outputs, we used a 90 percent materiality
threshold. For example, if Bechtel met 90 percent or more of the intended outputs, we
deemed Bechtel had achieved its intended outputs. If Bechtel accomplished 89 percent
or less, we deemed Bechtel had not having achieved its intended outputs. A materiality
threshold was not applicable in determining if intended results were achieved.




                                                                                     11
                                                                                  APPENDIX II



MANAGEMENT COMMENTS


MEMORANDUM

TO:                     Nancy Lawton, Regional Inspector General/Baghdad

FROM:                   Hilda Arellano, Mission Director, USAID/Iraq /s/

DATE:                   April 4, 2007

SUBJECT:                USAID Comments on Draft Report E-267-07-00X-P, Audit of
                        USAID/Iraq’s Telecommunications Activities

USAID/Iraq is pleased to present this response to the draft audit report. General
comments are presented first, followed by specific comments, including comments on
the recommendations.

I. General Comment:

It is important that the audit more clearly state, at the outset, that the United States
Government (USG) funded Consolidated Fiber Network (CFN) for Electricity, Rail and
Communications Program (“the Telecommunication Program” or “the Program”) is an
Iraq Reconstruction and Management Office (IRMO) led program, 12 involving multiple
partners, not a USAID program per se.

The report should make clear that USAID’s contribution to the Program consisted solely
of the specific activities undertaken under its Infrastructure Program, as implemented by
Bechtel National Incorporated (BNI) under the Phase II contract through Job Order (JO)
No. 05-521, as amended.

The report should also more clearly state that USAID is not responsible or accountable
for the complete implementation of the Program or the achievement of intended results
under the Program as this is beyond its authorized contribution to the Program, which
contribution was prescribed under the mandatory IRMO-led interagency coordination
process for the USG’s Iraq reconstruction program. Specifically, the draft report’s
Intended Result No. 3 (“The additional ME links will expand the existing ITPC facilities
and in addition this project will provide future benefits to an estimated 10 million people

12
   See the November 2004 IRMO document entitled “Statement of Objectives (SOO),
Consolidated Fiber Network (CFN) for Electricity, Rail and Communications.” This document is
signed by IRMO officials in its Electricity, Transportation and Communications Divisions and is
widely regarded as the IRMO approval document for the Program. USAID is not mentioned in
and did not approve the document, although it was later tasked with completing the above-noted
components of the Program.


                                                                                             12
throughout Iraq by improving modern, high-speed data and voice transmission
network.”) is not a result that can be achieved by USAID alone through its contribution to
the Program and the inclusion of this statement in the above-referenced JO was not
intended to be read as such.

Contrary to the findings in the draft report, USAID believes that it has fully achieved its
contribution to the Program, as discussed in Section II, below.

Finally, the report’s indirect assertion that USAID bears responsibility for the overall
Program results reflects misunderstanding of the Program.

II. Specific Comments:

       1. Background Section:

        a. Page 2, 1st paragraph: The JO value, as amended, is $31 million, not $47
million as stated in the report. Please revise the report at page 2 and elsewhere to
include the correct value of the JO.

        b., Page 2, 2nd paragraph, 1st sentence: It is not clear whether this sentence
refers to the Telecommunications Program or USAID’s contribution to the Program. See
General Comment above.

        c. Page 2, last paragraph, 1st word: The word “initially” implies that there was a
change to remove IRMO as the USG lead for the Telecommunications Program. In fact,
to our knowledge, no change occurred and IRMO remains the USG lead for the
Program, notwithstanding what current, apparently not fully informed IRMO staff state to
the contrary. We therefore recommend that the report be revised at page 2 and
elsewhere to correctly reflect that IRMO was and is the lead USG agency or “integrator”
for the Program. Without this correction, the report incorrectly implies that USAID is the
lead USG agency for the Program, which, as noted in our General Comments above, is
not the case.

         d. Page 2, 2nd sentence of last paragraph: A more appropriate depiction of the
roles of the various partners follows: “The United Nations Development Program and
the DOD Project and Contracting Office were involved in separate projects which were a
part of the overall Program, including the remote terminal units’ Supervisory Control and
Data Acquisition (SCADA), and the Ministry of Electricity….” Please revise the audit
report accordingly.

        e. Page 2, footnote 5: From an engineering standpoint, control of the system is
performed by a master computer located miles away in a National Dispatch Center or a
regional control center, not by the remote terminal units (RTU). An RTU merely
packages data, sends it to the master computers, and implements centrally-determined
commands. The master computer analyzes the data and initiates control commands for
the equipment settings. The commands are then electronically sent back to the RTUs at
the various sites, where the RTUs implement the centrally determined commands.




                                                                                              13
       2. Audit Findings:

        a. Page 4, Table of Intended Results: Intended Result No.2 is incorrect. JO 05-
521, as modified by Amendment 3 in December 2006, states at page 9 of 10: “It is
expected that this project will employ an estimated 300 Iraqis through the use of local
Subcontractors and involvement of the Contractor’s Iraqi staff.” We further request that
the draft report be modified to reflect the correct Intended Result No. 2 and that a new
determination be made as to whether BNI provided documentation sufficient to support
this number.

        b. Page 4, Table of Intended Results: The draft report mischaracterizes the JO
statement which reads “[t]he additional ME links will expand the existing ITPC facilities
and in addition this project will provide future benefits to an estimated 10 million people
throughout Iraq by improving modern, high-speed data and voice transmission network”
as an intended USAID result, when in fact it is, as noted, a statement of anticipated
future results, which results are fully dependent on the completion of other aspects of the
Telecommunications Program. In other words, this is not an intended result which can
be achieved solely through USAID’s contribution to the Program under the JO. We
therefore recommend that Intended Result No. 3 be deleted, or, at a minimum, that it be
revised to reflect that the intended result is not solely within the scope of USAID’s
contribution to the Program and that the achievement of this result is not squarely within
USAID’s manageable interest.

       c. Page 5-6, Intended Results Not Fully Achieved:

        The bordered text under the subject header and language on this topic at pages
5-6 of the draft report is inaccurate in some respects and misleading in others. We
therefore recommend that the text in this section be revised to distinguish the
responsibility for and objectives under the Telecommunications Program from USAID’s
contribution to the Program, including results supported, in whole or in part, by USAID’s
contribution. See our General Comment, Sections II 1.c. and 2.b., above, in addition to
our comments below.

        It is not correct to state that the Ministry of Electricity (MoE) is not utilizing the
network. Rather, a correct statement is that the MoE is not fully utilizing the network.
The phrase “… the Ministry of Electricity is not completing…” implies that the MoE has
sole responsibility for the GOI’s contributions to the Program and that it is has not
undertaken efforts in support of completion of the Program. This is not accurate. Given
that the MoE is using the network and is currently making efforts to complete its part of
the Program, that the Iraqi Telephone and Post Company (ITPC) is also using the
network, and that IRMO is exploring avenues to support the implementation of the
Program, it is also not accurate to state that $46.1 million (as noted above, the final JO
value is $31 million, not $46.1 million) in USG funds could potentially be wasted. The
Program is not yet complete. This statement, at best, is premature.

        Statements in this section and elsewhere in the draft report indicating that
“millions of Iraqis are not yet benefiting from the consolidated fiber network contrary to
the project’s intended results” are highly misleading. This is an intended Program result,
not a result intended solely through USAID’s contribution to the Program. As we have
repeatedly stated, USAID is neither responsible for the entire Program nor the Program
results. And, USAID has no power to compel the completion of the Program.


                                                                                            14
        At Page 6, paragraph starting with “Although:” The draft report states that there
were three major strategic level objectives for the Program: communications
improvement, banking sector improvement, and electricity improvement. We question
the draft report’s portrayal of the entire Program as a potential waste of USG funds
because one of the three major objectives has not yet been achieved and the Program is
not complete. As noted above, IRMO is currently exploring options to support the
completion of the Program.

       3. Draft Recommendations

       Recommendation No. 1: We recommend that USAID/Iraq, in coordination with
       the Iraq Reconstruction Management Office and the Ministry of Electricity,
       develop and implement a plan to allow the full intended benefit of the
       telecommunications project to be realized by installing and making operational all
       the necessary equipment.

For the reasons outlined above, USAID disagrees with this recommendation. As noted,
IRMO has the lead for the USG on the Telecommunications Program. USAID was only
responsible for a specific component of the Program, as directed by IRMO, which aspect
USAID has fulfilled. Not only is USAID not authorized to serve as the USG lead for the
Program, USAID does not have the funds or current capacity to oversee the completion
of the Program as its Infrastructure Program formally concluded on March 31, 2007 and
is now in close-out status. Responsibility within the USG for the implementation of the
Program remains with IRMO as the USG lead for the Program.

Finally, we wish to note that although Mission staff may have taken informal actions to
support the completion of the Program, these efforts cannot be confused with the formal
or informal commitment by USAID to undertake responsibility for the implementation of
the Program, as recommended by the draft report.

       Recommendation No. 2: We recommend that USAID/Iraq develop a system to
       ensure that preliminary planning for future construction or rehabilitation projects
       will include (1) carrying out due diligence on potential partners and (2) obtaining
       written agreement from key partner officials regarding their responsibilities and
       outputs that are essential to the achievement of the project.

USAID disagrees with this recommendation. The Agency has in place polices and
procedures for the planning, development, design and implementation of programs,
projects and activities, including procedures that address due diligence issues. These
policies and procedures apply to infrastructure programs, projects and activities as they
do to others. Thus, there is no need to invent a new system.

The USG Iraq reconstruction program, including the Telecommunications Program, was
started during a transitional phase in the Iraqi Government when, with a few exceptions,
USG economic assistance to Iraq was delivered outside of government-to-government
agreements. Further, USAID’s economic assistance to Iraq was approved and directed
by the CPA and then IRMO. Now that a permanent Iraqi Government is in place and the
capacity of the government is being developed through USG and other donor-funded
assistance, in the future, we envision that USG will endeavor to enter into agreements or



                                                                                         15
arrangements with the Iraqi Government that outline the contributions, roles and
responsibilities of each party.

Here, we wish to again emphasize that the Mission’s Infrastructure Program has
concluded and is in close-out status. USAID/Iraq’s current strategy and planning does
not include another infrastructure program or capital infrastructure projects or activities.

       4. Results Should Have Sufficient Supporting Documentation

Please see our comment at Section II.2.a., above.




                                                                                           16
                                                                             APPENDIX III



            INTENDED OUTPUTS SUMMARY
The statement of work in the job order provided the intended outputs to be achieved by
Bechtel National, Inc. (Bechtel). As shown in the table below, the intended outputs were
broken down into four areas: fiber optic backbone, Ministry of Electricity, Iraq
Telecommunications and Post Company (ITPC), and spare parts. All of the intended
outputs relate to providing and installing fiber optic cable, providing equipment, providing
training, or providing spare parts to the beneficiaries.


                           TABLE OF INTENDED OUTPUTS

                                                                              Intended
                                                                               output
No.                            Intended Output                               achieved?
 1    Fiber Optic Backbone
      • Provision and installation of fiber optic cable in the ITPC              Yes
         backbone.
 2    Ministry of Electricity
      • Provision and installation of the fiber optic cable needed for           Yes
         connectivity of the 42* sites from the ITPC facilities to the
         Ministry of Electricity sites.
      • Provision of private automatic branch exchange equipment                 Yes
         to the Ministry of Electricity locations.
      • Provision of fiber optic transmission equipment having                   Yes
         standard compliant interfaces.
 3    ITPC
      • Assistance to the ITPC to identify fiber optic breaks in their           Yes
         existing fiber optic backbone. Provision of fiber optic cable
         test and repair equipment with training.
      • Provision of fiber optic transmission equipment and the                  Yes
         optical distribution frame to the ITPC facilities.
      • Provision of fiber optic construction and test equipment with            Yes
         spare parts for one year, training, and technical services to
         the ITPC.
 4    Spare Parts
      • Provision of spare parts for equipment furnished for all 60              Yes
         sites for one year of operations.

* Bechtel installed the fiber optic cables and fiber optic equipment systems at 40 of the
 42 sites (equal to 95 percent). Given the materiality threshold of 90 percent, the
 intended output was achieved.




                                                                                         17
         USAID/IRAQ/RIG
          APO, AE 09316
Tel: (202) 216-6276, extension 1036
        Fax: (202) 216-6276
          www.usaid.gov
